No. 21-372

 

 

IN THE

Supreme Court of the United States

STATE OF OKLAHOMA,

Petitioner,
v.

CHARLES MICHAEL COOPER,
Respondent.

On Petition for a Writ of Certiorari to the
Oklahoma Court of Criminal Appeals

BRIEF OF AMICUS CURIAE
THE CHICKASAW NATION
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 15, 2021.

 

Colin Casey“Hogan
Wilson-Epes Printing Co., Inc.
